No. 21-

3in the iimpreme Court of the tiniteti iptateo
ADIR INTERNATIONAL, LLC, DBA CURACAO, FKA LA CURACAO, A DELAWARE LIMITED
LIABILITY COMPANY; RON AZARKMAN, AN INDIVIDUAL, PETITIONERS
V.

STARR INDEMNITY AND LIABILITY COMPANY, A TEXAS CORPORATION
CERTIFICATE OF SERVICE
I, as a member of the Supreme Court bar, certify that on October 8, 2021, three
copies of the Petition for a Writ of Certiorari in the above-captioned case were served
by U.S. Mail, as required by U.S. Supreme Court Rule 29.5(c), on the following:
Kevin F. Kieffer
TROUTMAN PEPPER HAMILTON SANDERS LLP
5 Park Plaza, Suite 1400
Irvine, CA 92614
(949) 622-2700
Counsel for Respondent
The following email addresses have also been served electronically:
kevin.kieffer@troutman.com

Steffen N. Johnson
Wilson Sonsini Goodrich & Rosati
Counsel for Petitioners

